                                                           AGENCY PROFILE

The National Labor Relations Board              represented by a union in dealing with
(NLRB or Agency) is an independent              their employers and, if so, by which
Federal agency established in 1935 to           union; and (2) to prevent and remedy
administer the National Labor Relations         unlawful acts, called unfair labor
Act (NLRA). The NLRA is the                     practices, by either employers or unions.
principal labor relations law of the
United States, and its provisions               NLRB authority is divided by law and
generally apply to private sector               delegation. The five-member Board
enterprises engaged in, or to activities        primarily acts as a quasi-judicial body in
affecting, interstate commerce. NLRB            deciding cases on formal records. The
jurisdiction includes the U.S. Postal           General Counsel investigates and
Service (other government entities,             prosecutes unfair labor practices before
railroads, and airlines are not within          administrative law judges, whose
NLRB’s jurisdiction).                           decisions may be appealed to the Board;
                                                and, on behalf of the Board, conducts
The NLRB seeks to serve the public              secret ballot elections to determine
interest by reducing interruptions in           whether employees wish to be
commerce caused by industrial strife. It        represented by a union.
does this by providing orderly processes
for protecting and implementing the             The Board consists of the Chairman and
respective rights of employees,                 four Members who are appointed by the
employers, and unions in their relations        President with the advice and consent of
with one another. The NLRB has two              the Senate. Board Members serve
principal functions: (1) to determine and       staggered terms of 5 years each. The
implement, through secret ballot                General Counsel is also appointed by the
elections, the free democratic choice by        President with the advice and consent of
employees as to whether they wish to be         the Senate and serves a 4-year term.




NLRB OIG Semiannual Report                  1         October 1, 2006 – March 31, 2007
                                                                       AGENCY PROFILE

The present Board Members and                   throughout the country. Three satellite
General Counsel have served throughout          offices for the Administrative Law
this reporting period.                          Judges are located in Atlanta, San
                                                Francisco, and New York City. Since
The NLRB received an appropriation of           October 2, 2000, field offices have
$251,507,470 for Fiscal Year (FY) 2007          included 32 Regional Offices, 16
to fund a ceiling of 1,755 full-time            Resident Offices, and 3 Subregional
equivalents. NLRB Headquarters is at            Offices.
1099 14th Street, NW, Washington, DC.
                                                Additional information about the NLRB
In addition to the Headquarters building,       can be found on the Web site
employees are located in 51 field offices       www.NLRB.gov.




NLRB OIG Semiannual Report                  2         October 1, 2006 – March 31, 2007
                                    OFFICE OF INSPECTOR GENERAL

NLRB established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act of 1978 (IG Act).


Resources                                       description to include computer
The FY 2007 OIG budget is $1,146,700            forensics and other needed information
for operations, of which $185,000 is for        technology skills. In December 2006,
contract services. In addition to the           the Inspector General (IG) was told that
Inspector General, the OIG consists of a        the Agency was reducing its full-time
Counsel/Assistant Inspector General for         equivalents (FTE) and that the OIG
Investigations, Assistant Inspector             needed to reduce its FTE level by one.
General for Audits, three auditors (one         The IG chose to eliminate the FTE that
currently vacant), and a staff assistant.       was occupied by the investigator
                                                position.
William A. Garay, an OIG Lead
Auditor, retired December 27, 2006.             There was also discussion regarding
                                                whether the Lead Auditor position was
OIG had agreed to leave the Investigator        necessary. The Chairman determined
position vacant in FY 2006 to help with         that the Lead Auditor position could be
an Agency budget crisis, and was                filled. Hiring a replacement for the Lead
researching how to rewrite the position         Auditor was delayed several months.




NLRB OIG Semiannual Report                  3         October 1, 2006 – March 31, 2007
                                                             AUDIT PROGRAM

The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate audits relating to program operations of the Agency. OIG issued three audit
reports and one issue alert.

Reports Issued                                   A management letter identified four
•   We issued Audit Report                       other areas in which management could
OIG-F-11-07-01, Audit of the NLRB                improve controls or operating
Fiscal Year 2006 Financial Statements,           effectiveness. These included
on December 14, 2006.                            information technology (IT) security,
                                                 major systems development
The audit, performed by Carmichael,              capitalization, and property accounting.
Brasher, Tuvell & Company (CBTC), an
independent public accounting firm,              Management generally agreed with two
found that NLRB’s FY 2006 Financial              of the four findings and related
Statements were fairly stated. No                recommendations made in the
material weaknesses in controls over             Management Letter. The Chief
financial reporting were identified. In          Information Officer agreed with most of
addition, no instances of non-compliance         our IT security findings, but disagreed
with laws and regulations required to be         that improvements would be neither
reported by Government Auditing                  labor nor resource intensive to
Standards or the Office of Management            implement. Management disagreed with
and Budget (OMB) were identified.                our conclusion that it was inappropriate
                                                 to obligate FY 2006 funds for
CBTC’s Report on Internal Control                subscription contracts that were entirely
identified one reportable condition. The         for FY 2007 services. As part of a later
Agency has not implemented a disaster            audit, we agreed that guidance is not
recovery plan.                                   clear and consistent on this issue.




NLRB OIG Semiannual Report                   4          October 1, 2006 – March 31, 2007
                                                                        AUDIT PROGRAM

•   We issued Audit Report                     The percentage of cases not meeting
OIG-AMR-54-07-01, Impact Analysis,             performance goals has decreased since
on March 12, 2007. This audit evaluated        Impact Analysis was initiated. We
the current usefulness of the Impact           believe several factors unrelated to
Analysis Program.                              Board agent efficiency made the
                                               performance goals more attainable.
Impact Analysis was established in 1995        These factors include excusing a large
to provide for prioritization of cases         number of overage cases, a shrinking
based on public impact and to ensure           caseload, and increasing the timeframes
that those cases that require prompt           for completing a case.
resolution receive sufficient resources
and the Agency's best efforts. As              Management generally agreed with our
initially proposed, cases were divided         findings. We had no recommendations,
into three categories, all with longer         although we noted that managing to the
timeframes than the previous one of 45         Impact Analysis due date had a positive
days from receipt of an unfair labor           impact on the timely completion of
practice case to disposition.                  cases.


Although caseload and staffing                 •   We issued Audit Report
parameters have changed significantly          OIG-AMR-52-07-02, Procurement
since Impact Analysis was initiated, the       Actions, on March 26, 2007. We
program remains a logical mechanism to         conducted this audit to evaluate the
manage the Regional Office caseload.           process for the procurement of goods
The program is broadly supported by            and services.
managers and employees and is not
administratively burdensome.                   Most of the 25 contracts reviewed had
                                               some aspect that was not in conformance




NLRB OIG Semiannual Report                 5            October 1, 2006 – March 31, 2007
                                                                           AUDIT PROGRAM

with the Federal Acquisition Regulation          information was available to estimate the
or Federal appropriations law. The non-          extent and duration of the work and
conformances dealt with all aspects of           anticipate costs.
the process including planning, awarding
the contract, and monitoring contractor          Two contracts reviewed involved the
performance.                                     Agency spending more than was needed
                                                 to meet the identified need or contractual
Three contracts were entered into                obligation. In a contract for mailroom
between 1 and 3 days before assurance            services, the Agency used the wrong
that funds were available and were not           Federal Supply Schedule costing the
contingent on the availability of funds.         Agency approximately $174,000 for the
The Agency increases the risk of                 first 3 years of the contract.
exceeding its appropriation if funds             Approximately $342,000 could be put to
availability is not determined before            better use for the remaining 4 option
entering into a contract.                        years if the recommended corrective
                                                 action is taken. In a contract for
Seven contracts in our sample involved           technical space planning and design
Agency personnel accepting goods or              services, the Agency paid a contractor
services prior to the existence of the           $1,150 for lunch breaks.
contracts, thereby creating unauthorized
commitments. These contracts were also           Management agreed with several
not properly ratified. For four contracts,       recommendations and changed an
the contract files contained no evidence         incorrectly recorded payment of
that market research was completed. A            $3,892.50. Management disagreed with
labor-hour contract was executed for             several findings. We emphasized that
mailroom operations even though                  our recommendations could save the
                                                 Agency substantial amounts.




NLRB OIG Semiannual Report                   6          October 1, 2006 – March 31, 2007
                                                                        AUDIT PROGRAM

•   We released Issue Alert                     •   OMB Circular A-123, revised in
OIG-IA-07-01, Top Management and                February 2006, states that charge card
Performance Challenges, on October              managers should implement internal
12, 2006. The OIG developed a list of           controls that mitigate charge card risks.
what it considers to be the most serious        In September 2002, we completed an
management and performance                      audit of travel and purchase cards. We
challenges facing the NLRB. They are:           made multiple recommendations to
1. Reduce the Board's pending caseload          improve management oversight of the
    to meet performance goals;                  programs.
2. Comply with Privacy Act system
    notice requirements;                        This period, we determined whether
3. Develop, implement, and test an IT           management effectively implemented
    contingency plan;                           the recommendations and other internal
4. Implement e-government initiatives           controls. For travel cards, actions
    to effectively communicate with             included blocking certain codes and
    parties and the public;                     reviewing monthly transaction reports.
5. Strengthen control over employees'           The Finance Chief contacts the
    use of the Agency information               employee, the supervisor, and the NLRB
    technology assets;                          Special Counsel as appropriate. If
6. Manage the Agency during periods             deemed necessary, Finance refers the
    of budgetary constraints;                   employees to us for investigation.
7. Ensure compliance with the Federal           Overall, we found that the
    Acquisition Regulation; and                 recommendations had been implemented
8. Provide sufficient protection of             effectively and management was
    sensitive and Personally Identifiable       adequately mitigating risks of misuse
    Information.                                and/or delinquency.




NLRB OIG Semiannual Report                  7         October 1, 2006 – March 31, 2007
                                                                          AUDIT PROGRAM

Audit Follow-up                                •   Audit of the NLRB Fiscal
Agreed upon actions were not completed         Year 2005 Financial Statements,
within 1 year on four audit reports. Two       OIG-F-10-06-01, was issued on
of these reports are now closed.               December 16, 2005, and we reached
                                               agreement with management on that
•   Audit of the NLRB Fiscal                   date. Recommendations to the CIO
Year 2004 Financial Statements,                were the same as those made in the FY
OIG-F-9-05-01, was issued on                   2004 Financial Statement audit
December 22, 2004, and we reached              discussed above. We closed the audit
agreement with management on that              report on April 9, 2007.
date. Recommendations were made to
the Chief Information Officer (CIO) and        •   Non-Standard Work Hours
the Director of Administration.                Compensation, OIG-AMR-47-05-04,
                                               was issued on August 9, 2005, and we
The CIO reported that action was               reached agreement with management on
completed on the recommendation to             that date. Action was completed on four
implement a disaster recovery plan in          recommendations. Little measurable
accordance with National Institute of          progress was made in implementing the
Standards and Technology standards on          remaining three recommendations
November 2, 2006. The plan was                 during the past 6 months.
reviewed and deemed implemented by
OIG contract auditors in March 2007.           •   Safeguarding Social Security
                                               Numbers, OIG-AMR-48-05-05, was
The final open recommendation to the           issued on August 31, 2005, and we
Division of Administration has yet to be       reached agreement on that date. Action
completed. The issue will be reviewed          was completed on the final open
as part of the current audit of the FY         recommendation. We closed the audit
2007 financial statements.                     report on February 9, 2007.



NLRB OIG Semiannual Report                 8         October 1, 2006 – March 31, 2007
                                              INVESTIGATIONS PROGRAM

The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate investigations relating to the programs and operations of the Agency. OIG
processed 105 contacts, initiated 9 cases, and closed 7 cases. The investigations resulted
in three resignations, two suspensions, $296 in investigative recoveries, and four
referrals to the Department of Justice.


                        Case Workload                  Contacts Processed

                  Open (10/1/2006)      10        Received                  105

                  Initiated               9       Initiated Investigation     0

                  Closed                  7       Opened Case --              0
                                                  Referred to Agency
                  Open (3/31/2007)      12        Non-Investigative         105
                                                  Disposition


•   Misuse of Cellular Telephone.                  employee resigned her employment, the
OIG initiated this case after receiving a          contractor reimbursed the Agency in the
report that a contract employee misused            amount of $296. (OIG-I-395)
an Agency issued cellular telephone.
After documenting the misuse through a             •    Misuse of the Internet. OIG
review of the cellular telephone records,          initiated this case after receiving a report
we confronted the contract employee                that the subject received sexually
who admitted to the misuse and agreed              graphic digital video disks (DVDs) at
to reimburse the Agency.                           work. Through a subpoena, we obtained
                                                   information to substantiate that the
When the contract employee failed to               subject ordered sexually graphic DVDs
provide the promised reimbursement, we             and that he directed the company to ship
issued a report to the Chief, Procurement          them to his work address. We conducted
and Facilities Branch, recommending                a forensic review of the hard drive from
that she consider seeking reimbursement            the subject's Government computer.
from the contractor. After the contract


NLRB OIG Semiannual Report                    9              October 1, 2006 – March 31, 2007
                                                              INVESTIGATIONS PROGRAM

That review disclosed that sexually             Chairman about the Antideficiency Act
explicit material was viewed by the             violations that will be addressed
subject in late 2004. The subject also          separately from this investigation.
purchased and downloaded software that          (OIG-I-399)
purports to eliminate all traces of his
Internet browsing activity. The subject         •   Failure to Follow Orders. At the
resigned from the Agency after he was           request of Agency management, OIG
contacted for an interview. (OIG-I-289)         initiated a case involving a subject who
                                                failed to follow orders of her supervisor
•   Antideficiency Act and False                regarding remaining in the office after
Statements. OIG initiated this case             the end of her scheduled workday. Our
after an auditor discovered that the            investigative efforts consisted of
subject backdated a contract. The               reviewing Internet logs and interviewing
investigation involved obtaining                the subject. After we substantiated the
information from the contracts that were        allegation, the subject received a 5-day
executed in September and October               suspension. (OIG-I-396)
2006 and interviews of the Agency's
procurement staff.                              •   Travel Card Misuse. As previously
                                                reported, OIG initiated a case following
We substantiated the allegation against         a proactive review of the transactions for
the subject as well as finding other            the CitiBank Travel Card. During that
instances of backdating contracts. We           review, we identified what appeared to
also substantiated two Antideficiency           be $1,140 in cash advances that were not
Act violations. The local U.S.                  related to official travel. When
Attorney's Office declined prosecution.         interviewed, the subject admitted that he
The subject resigned prior to the OIG           engaged in this misconduct. During this
issuing a report. We notified the               reporting period, the subject received a
                                                3-day suspension. (OIG-I-397)



NLRB OIG Semiannual Report                 10         October 1, 2006 – March 31, 2007
                                                               INVESTIGATIONS PROGRAM

•   Mail Fraud. OIG initiated this                OIG investigative report to the
case after receiving information that the         appropriate state disciplinary authorities
subject may have engaged in mail fraud            for attorney misconduct. (OIG-I-400)
by using the U.S. mail to send fraudulent
documents to a third party. The                   •   False Personation. OIG initiated
documents involved providing                      this case at the request of the Division of
information regarding the subject's               Operations-Management. The allegation
position with the Agency. We referred             involved a person who filed a charge
our investigative findings to the local           with a Regional Office and then posed as
U.S. Attorney's Office, who is now                a Field Examiner when he telephonically
reviewing the matter. (OIG-I-398)                 contacted a potential witness. When
                                                  confronted, the person admitted to
•   Attorney Misconduct. OIG                      impersonating a Field Examiner. The
initiated this case after learning that an        person then withdrew the charge and the
attorney copied the trial notes of an             case before the Agency was terminated.
opposing counsel without permission               The local U.S. Attorney's office declined
and then was instructed by two                    prosecution. (OIG-I-405)
management level attorneys to destroy
the notes without notifying the opposing          Hotline
counsel or the administrative law judge.          Employees and members of the public
                                                  with information on fraud, waste, and
We substantiated the allegation.                  abuse are encouraged to contact OIG. A
Because this allegation involved the              log of calls to a nationwide toll free
obstruction of justice, we notified the           number or the office numbers and a log
local U.S. Attorney's Office.                     of mail, e-mail, and facsimile messages
Prosecution of the three subjects was             are maintained. All information
declined. Agency managers are                     received, regardless of the method used,
considering disciplinary action. The              is referred to as HOTLINE contacts.
Agency also forwarded the

NLRB OIG Semiannual Report                   11          October 1, 2006 – March 31, 2007
                                                                INVESTIGATIONS PROGRAM

The information received over the                  As appropriate, OIG refers these callers
hotline is the basis for the initial review        to the Regional Office; local, state, or
for potential investigations. The                  Federal agency; or private resource to
information is analyzed to determine if            provide assistance.
further inquiry is warranted. Most
HOTLINE contacts are calls from                    During this reporting period, OIG
members of the public seeking help on              received 105 hotline contacts, of which
an employment related problem or issues            47 were telephone calls and 58 were in
outside OIG and/or Agency jurisdiction.            writing.




NLRB OIG Semiannual Report                    12          October 1, 2006 – March 31, 2007
                  LEGISLATION, REGULATIONS, AND POLICY
The Inspector General is to review existing and proposed legislation and regulations
relating to programs and operations of the Agency and is to make recommendations
concerning the impact of such legislation or regulations. Similarly, we review Agency
and OIG policy. We reviewed six pieces of legislation.

Legislation                                       professionalism and effectiveness of
We reviewed the following legislation.            personnel in IG offices and an Integrity
                                                  Committee for the Council to review and
H.R. 928, Improving Government                    refer for investigation allegations that
Accountability Act. This legislation              are made against IGs and certain staff.
would amend the IG Act of 1978 to                 The legislation considers each OIG to be
allow an IG to be removed from office             a separate Federal agency and empowers
prior to the expiration of his or her term        IGs of certain designated Federal entities
only for certain reasons involving                with the same law enforcement authority
incapacity; inefficiency; neglect of duty;        provided to other IGs.
malfeasance; or conviction of a felony or
conduct involving moral turpitude.                S. 680, Accountability in Government
Establishes the term of office of each IG         Contracting Act of 2007. In addition to
as 7 years and permits reappointment. It          making a variety of changes to the
would make similar amendments                     Federal procurement practices, this
respecting the appointment of IGs of              legislation would make certain changes
certain designated Federal entities. The          affecting the IGs. Presidentially
legislation would authorize an IG to              appointed IGs who are currently
annually transmit an appropriation                appointed at Level IV of the Executive
estimate and request to the Director of           Schedule would be appointed at Level
OMB and to the appropriate                        III. The legislation would also require
congressional committees. It establishes          the appointment of IGs at designated
within the Executive Branch the Council           Federal entities without regard to
of the Inspectors General on Integrity            political affiliation and solely on the
and Efficiency to increase the                    basis of integrity and demonstrated


NLRB OIG Semiannual Report                   13          October 1, 2006 – March 31, 2007
                                                  LEGISLATION, REGULATIONS, AND POLICY

ability in accounting, auditing, financial         for determining whether a whistleblower
analysis, law, management analysis,                has a reasonable belief that a disclosure
public administration, or investigation.           evidences governmental waste, fraud, or
                                                   abuse, or a violation of law. The
The legislation would require that                 legislation allows an employee, former
Congress be notified 15 days before the            employee, or applicant who seeks
removal or transfer of an IG at a                  corrective action from the Merit Systems
designated Federal entity. It would also           Protection Board with respect to an
provide certain clarification regarding            alleged prohibited personnel practice to
the authority of an IG to subpoena                 bring action in Federal district court for
electronic data and make the Program               de novo review. It also provides that an
Fraud Civil Remedies Act applicable to             employee of a covered agency may not
IGs at designated Federal entities.                be discharged, demoted, or
                                                   discriminated against as a reprisal for
H.R. 985, Whistleblower Protection                 making a disclosure of covered
Enhancement Act of 2007. This                      information to an authorized Member of
legislation includes as a protected                Congress, authorized executive official,
disclosure by a Federal employee any               or the IG of the covered agency.
lawful disclosure an employee or
applicant reasonably believes is credible          H.R. 516, Federal Agency Data
evidence of waste, abuse, gross                    Privacy Protection Act. This
mismanagement, or substantial and                  legislation would require that sensitive
specific danger to public health or safety         data maintained by an agency be
without restriction as to time, place,             encrypted and that the agency IG
form, motive, context, or prior                    approve or disapprove any request to
disclosure. It codifies the legal standard         transport or access sensitive data to or
                                                   from a location off Government
                                                   property.



NLRB OIG Semiannual Report                   14           October 1, 2006 – March 31, 2007
                                                  LEGISLATION, REGULATIONS, AND POLICY

H.R. 866, Secret Ballot Protection Act.            of the representative (card-check) and
This legislation would amend the NLRA              there is no other individual or labor
to make it an unfair labor practice for an         organization currently certified or
employer to recognize or bargain                   recognized as the exclusive
collectively with a labor organization             representative of any of the employees
that has not been selected by a majority           in the unit. It would also revise the
of the employees in a secret ballot                enforcement and investigative priority of
election conducted by the NLRB or for a            charges related to union organizing
labor organization to cause or attempt to          activity. The legislation also adds back
cause an employer to recognize or                  pay plus liquidated damages and
bargain collectively with a                        additional civil penalties to remedies for
representative that has not been selected          such violations.
in such manner.
                                                   Regulations
H.R. 800, Employee Free Choice Act                 The Counsel to the Inspector General is
of 2007. This legislation would amend              an advisory member of the Agency's
the NLRA to require the NLRB to                    Rules Revision Committee that develops
certify a bargaining representative                changes to the Agency's procedural
without directing an election if a                 regulations. During this reporting
majority of the bargaining unit                    period, the committee reviewed a
employees have authorized designation              proposal to amend the Agency's
                                                   Freedom of Information Act regulations.




NLRB OIG Semiannual Report                   15          October 1, 2006 – March 31, 2007
                                                        LIAISON ACTIVITIES

The Inspector General is to recommend policies for, and is to conduct, supervise, or
coordinate relationships between the Agency and other Federal agencies, state and local
governmental agencies, and non-governmental entities. The Inspector General is to give
particular regard to the activities of the Comptroller General of the United States.
Similarly, we encourage OIG staff members to participate in Agency programs and
activities. OIG staff are active in the inspector general community and Agency functions.

Inspector General Community                       The Counsel participated in the Council
The Inspector General is a member of              of Counsels to Inspectors General
the Executive Council on Integrity and            (CCIG). The Counsel continued to
Efficiency (ECIE), which consists                 participate as a member of a CCIG
primarily of the inspectors general at the        working group reviewing investigative
designated Federal entities in the IG Act.        manuals to identify common areas in
She participated in activities sponsored          which a set of "best practices" could be
by the President's Council on Integrity           established. A matrix of "best practices"
and Efficiency (PCIE), which consists             was issued in November 2006.
primarily of the Presidentially-appointed
inspectors general. She was a member              Government Accountability Office
of the Audit Committee from May 2001              The IG Act states that each inspector
until January 2007. She became a                  general shall give particular regard to the
member of the Legislative Committee in            activities of the Comptroller General of
February 2007.                                    the United States, as head of the
                                                  Government Accountability Office
The Assistant Inspector General for               (GAO), with a view toward avoiding
Audits, or designated auditors,                   duplication and ensuring effective
participated in the Federal Audit                 coordination and cooperation. No
Executives Council and the Financial              reviews of NLRB are currently ongoing.
Statement Audit Network.




NLRB OIG Semiannual Report                   16         October 1, 2006 – March 31, 2007
                                                                  LIAISON ACTIVITIES

GAO issued its annual update of the           performance period instead of its
Principles of Federal Appropriation           accounts. The GAO update discusses
Law, GAO-07-508SP, in March 2007.             the opinion involving the NLRB and
Based on work done by the NLRB OIG,           states that the account adjustment
GAO had issued a decision that the            authority cannot be used to alter
Agency could not remedy an improper           executed contracts in order to reach
obligation by adjusting the contract's        expired funds.




NLRB OIG Semiannual Report               17         October 1, 2006 – March 31, 2007
                           INFORMATION REQUIRED BY THE ACT

Certain information and statistics based on the activities accomplished during this period
are required by section 5(a) of the IG Act to be included in the semiannual reports. These
are set forth below:

Section 5(a)

(1), (2), (7)   OIG did not identify significant problems, abuses or deficiencies relating to the
                administration of programs. For the purpose of this section, we used the
                definition of significant as set forth in the Federal Managers' Financial Integrity
                Act.

(3)             Corrective action has not been completed on all significant recommendations
                that were described in the previous semiannual reports.

(4)             Four cases were referred to prosecutorial authorities. There were no
                prosecutions or convictions.

(5)             No reports were made to the Chairman that information or assistance requested
                by the Inspector General was unreasonably refused or not provided.

(6)             A listing by subject matter is located on page 19.

(8), (9)        No audit reports issued during this period had a recommendation on questioned
                costs. One audit report issued during this period identified funds that could be
                put to better use. See Tables 1 and 2.

(10)            There are no audit reports issued before the commencement of the reporting
                period for which no management decision has been made by the end of the
                reporting period.

(11)            No significant revised management decisions were made during the reporting
                period.

(12)            There were no significant management decisions with which I am in
                disagreement.




NLRB OIG Semiannual Report                      18           October 1, 2006 – March 31, 2007
                        AUDIT REPORTS BY SUBJECT MATTER

                                                                        Funds To
                                Questioned   Unsupported   Ineligible   Be Put To
Report Title and Number          Costs          Costs        Costs      Better Use

ADMINISTRATION

Audit of the NLRB Fiscal Year
2006 Financial Statements
OIG-F-11-07-01                      0             0            0            0

Procurement Actions
OIG-AMR-52-07-02                    0             0            0        $343,150



FIELD INVESTIGATIONS

Impact Analysis
OIG-AMR-54-07-01                    0             0            0            0




NLRB OIG Semiannual Report              19        October 1, 2006 – March 31, 2007
Table 1                         REPORTS WITH QUESTIONED COSTS

                                                           Dollar Value
                                      Number of    Questioned      Unsupported
                                       Reports       Costs            Costs
A. For which no management
   decision has been made by the
   commencement of the period             0            0               0

B. Which were issued during the
   reporting period                       0            0               0

       Subtotals (A+B)                    0            0               0


C. For which a management
   decision was made during the
   reporting period                       0            0               0

(i)      Dollar value of disallowed
         costs                            0            0               0

(ii)     Dollar value of costs not
         disallowed                       0            0               0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                 0            0               0

       Reports for which no
       management decision was
       made within six months of
       issuance                           0            0               0




NLRB OIG Semiannual Report                    20   October 1, 2006 – March 31, 2007
                             REPORTS WITH RECOMMENDATIONS
Table 2                      THAT FUNDS BE PUT TO BETTER USE


                                     Number of    Funds Be Put
                                      Reports     To Better Use
A. For which no management
   decision has been made by the
   commencement of the period            0             0

B. Which were issued during the
   reporting period                      1          $343,150

       Subtotals (A+B)                   1          $343,150


C. For which a management
   decision was made during the
   reporting period                      0             0

(i)      Dollar value of
         recommendations that were
         agreed to by management         0             0

(ii)     Dollar value of
         recommendations that were
         not agreed to by
         management                      0             0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                1          $343,150

       Reports for which no
       management decision was
       made within six months of
       issuance                          0             0




NLRB OIG Semiannual Report                   21    October 1, 2006 – March 31, 2007
Every employee is the
guardian of integrity                                        .




                      OIG Hotline
                     1 800 736-2983
                  oighotline@nlrb.gov
                           or
                 1099 14th Street, NW
                 Washington, DC 20570


NLRB OIG Semiannual Report   22   October 1, 2006 – March 31, 2007
